               -
                                 I          NATIONAL SCIENCE FOUNDATION
                                             OFFICE OF INSPECTOR GENERAL
                                               OFFICE OF INVESTIGATIONS

                                          ACTION MEMORANDUM

TO:                              I                      ( FILE NUMBER:           I   DATE:
AIGI                                                    I   1-01050010           I   Februarv 8.2002

Subject:

Action: Case Close

  1. On A~ril24.2001.INSFOIG received an allegation of theftlembezzlement of amroximatelv



  2. The University's Disciplinary Advisory Committee investigated the allegation and issued a
     decision on May 2 1,2001. On June 27,200 1 NSF' OIG issued a subpoena for the Committee's
     investigation and decision on SUBJECT.

  3. The committee found SUBJECT did misappropriate funds from NSF grant                               by
     claiming $2700 in personal attendant fees yet keeping $1800 for personal use.

  4. After meeting with the Dean during the investigation, SUBJECT wrote a check for $1800 to
     his personal attendaht,          to whom the grant money should have initially been
     disbursed to in order to compensate for his time.

 5. The SUBJECT paid the $1800 misappropriated funds back to his personal attendant. This
    payment is considered restitution in full. This investigation is closed and no further action is
    being taken by OIG at this time.

COPIES MADE:
                                                                           11
           I   PREPAREDBY:   I                   CLEARED BY:               111

           1                 1       -:      1   SAC:

                                                                    I *'"' 11
INITLALS
& DATE
                                                                                     May 2 1,2001
                                                                                              \




                                                   MEMORANDUM



        To:             -     -    - - - -- .-

                                  .-
                                                 ---   -       ->   - --   - , -


        From:          Disciplinary Advisory Committee:




        Subject:       Committee Report on the Case of


               In accordance with                   ~fthe                              Agreement
        the Disciplinary Advisory Committee ("Committee7') in the case of - .                    1s
                                                                                                  '
                                                                                                  6
                                                                                                  .




        transmitting a report of its evaluation of the substance of the charges and allegations
        made by                                     ("Dean") leading to a recommendation of
        termination.



        BACKGROUND

                The Committee was convened on March 21, 2001; it initially included a fifth
        member, who had to withdraw for health reasons, under procedural agreement between
        the                              and the
        (       ) l a e original deadliie was extended, again by agreement between the
        due to the faculty strike, committee travel schedules, and the request for additional
        preparation time by
*   t
               The Committee received a briefing book (Attachment 1) of exhibits and general
        information, a copy of which was given to          . The Dean's letter (Tab 1,
                                                           '
          L


                             Attachment 1) of ~eckmber6,2000, specified the following charges against
    .              i                 , The seriousness of the charges caused the Dean to recommend the disciplinary

                             action of termination.,

                                     1. -             ,   misappropriated Federal grant b d s for his personal use.

                                    2.               caused to be falsified time sheets that resulted in payment of
                                         salaries fiom NSF pational Science Foundation] Grant
                                                                orfn
                                                                   a-                      periods in which they
                                         performed no work.

                                    3.            -hired a personal attendant-              as his personal employee.
                                         He subsequently hired                 a Student Assistant through the
                                                                                          s research grants.

                       -..          4. -          authorized payroll expenditures fo
                                      h      n NSF Grant                                          -   - -- - - .   .
                                       were actually performing work on NSF Grant

                                    The Committee received            's appeal letter to President         dated
                             January 3,2001 (Tab 32, Attachment I), and met with               on May 2,2001.

                                     The Committee reviewed documents provided by the ' Administration (a list is
         ...                 included in the briefing book, Attachment I), and interviewed a number of persons
                             involved in the case during the period April 3 - May 2,2001. Subsequent to and as a
                             result of the review add interviews, further information and documents were acquired and
                             read by the Committee (listed in Attachment 2).




                         FINDINGS ON SPECIFIC CHARGES                                                                   d




                                Based on these reviews and interviews, the Committee reached the following
                         conclusions regarding the fact-finding investigation conducted by Dean


                                1 We concur with the substance, findings and conclusions related to charge #I.

                             The Dean's findings and conclusions afe correct.              misappropriated federal
                         grant f h d s from NSF Grant               . by claiming $2700 in personal attendant fees
                         (to be paid to the a t t e n d a n t y e t keeping $1800 out of the $2700 fo9 his
                         personal use. A false receipt was created for the $2700, with the apparent intent to
                         defraud. After meeting with the Dean during the kvestigation, -             wrote a
                         personal check for $1800 t           o implicitly admitting that he had improperly
C
               ,         retained those funds.
    \.
     .   .

".               I             l-        -
                                             has not opposed the specific findings by the Dean.


                               2. We concur dith the substance. findin~sand conclusions related to charge #2.

                                            - has not opposed the substance of this charge of falsification, and the paper
                           trail is explicit. such violations of fiscal policy for federal grants as were initiated by
                                        must be addressed and repaired by the university.

             .       .

                               3. We concur i i t h the substance, findin~sand conclusions related to charge #3.
                                                  r

                                There is a well-documented history throughout the 1990's of similar instances in .
                         --         s laboratory. - supervisors and administrators progressively warned
                                    ~fconsequences for this behavior, at least from 1992 when
                            agreement was explicitly required (see reference to         letter, Attachment 1, Tab 1)
                            and culminating in 1998 when the Senior Vice President for Research informed him that
                            continued violation of policy "will be grounds for discharge" (see reference in
                            Attachment 1, Tab 1).               's memorandum of November 2,2000, to I
                                              . admitted to a recent violation.


             1
                               4. C h a r ~ #4
                                            e isltechnically valid, but there is an unresolved difference of
                                  ouinion on whether I               issued instructions to correct the NSF policy
                                  violations.
                              -
                                 -. - -    maintained that he issued verbal instructions for appropriate (i.e.,
                           corrected) payroll expenditures to subordinates. In the investigation, support staff did not
                           recall any request to make said corrections. Regardless of the disagreement, this charge,
                           appears to be a relatively minor idkaction that is easily correctable by standard fiscal and
                           administrative procedures.



                           OTHER FINDINGS AND CONCLUSIONS

                                    The Committee has determined that the                         has been very
                           carefil in documenting both the violations and the progr&sive attempts to correct the
                           fiscal and performance deficiencies over the years. While understanding thal
                           has performed reseafch under conditions of extraordinary challenge due to his disability,
                           it is particularly concerned with the record of chronic and repeated abuse of
                           subordinates, as well as fiscal and administrative mismanagement over many years. . .

         !                         The Committee finds it necessary to report an instance of attempted intimidation
                           of a potential witness, subsequent to the December 2000           letter and January 2001
                                   response. It learned
                                                ,
                                                        that the                     2ublished a report (Attachment
    3) on February 16, 2                                  ent 4) filed by          .  against a former
    laboratory employee                                  in relation to his resignation from
    employment.


                        informed us that this lawsuit had not actually been served as of May 2,
    2001. NSF Regulation 689.la(2) [Tab 5 of Attachment llstates:
                   " ~ s c o n d u c means]
                                     t      retaliation of any kind against a person who reported
                   or provided information about   . suspected or alleged misconduct and who
                   has notiacted in bad faith."
    Accordingly, the Cominittee concludes that :                attempted to intimidate a former
    employee in violation of NSF regulations.




           The Committee concludes that
                                                                 1




                                                     \

           1) The fiscal and administrative regulations of the                     and the
              National Science Foundation were well-established, reasonable, fairly applied,
)               and knowniby -
                             committed the offenses alleged under charges 1,2, and 3;
                                             9

           2)
           3)   Charge #4 is valid but              may have attempted to conrect the errors;
           4)      ---       was previously and sufficiently warned of disciplinary
                consequences of misconduct;
           5)   Dean           and his staff conducted a fair and objective investigation of
                alleged misconduct;
           6)   - .          had ample opportunity to defend his conduct before the Dean and

           7)
                before this Committee;
                Dear           has proper cause for the proposed disciplinary action, based on
                                                                                                         .'
                a fair investigation;
           8)   In addition, -           attempted to intimidate a potential witness by filing a
                lawsuit against him.



    Cc:   -




                                         .       v




                            :
